OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/JORDAN’S
SUSTAINABLE ACHIEVEMENT
OF BUSINESS EXPANSION
AND QUALITY PROJECT
AUDIT REPORT NO. 6-278-10-004-P
March 31, 2010




RIG/CAIRO
March 31, 2010

Office of Inspector General




MEMORANDUM

TO:                  USAID/Jordan Mission Director, Jay Knott
                     USAID/Jordan Contracting Officer, Charis Nastoff

FROM:                Regional Inspector General/Cairo, Jacqueline Bell

                     SUBJECT:      Audit of USAID/Jordan’s Sustainable Achievement of
                     Business Expansion and Quality Project (SABEQ)
                     (Report No. 6-278-10-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we carefully considered your comments on the draft report and made revisions
accordingly. We have included USAID/Jordan’s comments in their entirety in appendix
II.

This report includes eight recommendations for your action. Based on your responses,
USAID/Jordan’s comments and planned actions are partially responsive to the report
recommendations. After reviewing your comments and the documentation provided, we
consider that management decisions have been reached on recommendation nos. 2, 3,
5 and 8 and final action has been taken on recommendation no. 5. A management
decision for recommendation nos. 1, 4, 6 and 7 will be recorded after USAID/Jordan has
developed a plan of action, with target dates, for implementing the recommendations.
The Audit Performance and Compliance Division (M/CFO/APC) will make
determinations of final action after the mission completes planned corrective actions for
recommendation nos. 1, 2, 3, 4, 6, 7, and 8.

I appreciate the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
Plot 1/A Off Ellaselki Street
New Maadi
Cairo, Egypt
www.usaid.gov
CONTENTS
Summary Of Results.......................................................................................................1
Background .....................................................................................................................3
Audit Objectives..............................................................................................................3
Audit Findings .................................................................................................................4
          Usaid/Jordan Should Require That Audits
          Of Foreign Organizations Are Conducted ............................................................. 8
          Usaid/Jordan Should Review And Test
          Conflict-Of-Interest Mitigating Processes .............................................................. 9
          Usaid/Jordan Should Review And Obtain
          Antiterrorism Certifications .................................................................................. 11
          Usaid/Jordan Should Update
          Its Performance Management Plan..................................................................... 12
Evaluation Of Management Comments ...................................................................... 14
Appendix I - Scope And Methodology ........................................................................16
Appendix II - Management Comments ........................................................................ 18
Appendix III - Selected Performance Indicators......................................................... 24
Appendix IV - Sabeq Project Activities for 2008 ........................................................ 25
Appendix V - Sabeq Project Activities For Fiscal Year 2009 .................................... 29
Appendix VI - Sabeq Project Grants............................................................................ 36
SUMMARY OF RESULTS
In 2006, USAID/Jordan developed five strategic objectives, one of which focused on
improving private sector competitiveness within Jordan during fiscal years (FYs) 2007–
2011 under its Sustainable Achievement of Business Expansion and Quality (SABEQ)
Project. The 5-year, $69 million SABEQ contract, awarded on September 26, 2006, to
BearingPoint, Incorporated (BearingPoint), was designed to assist the Government of
Jordan in enhancing the country’s competitiveness in global markets, deepening the
public sector reform process, and increasing the number of available jobs (page 3). As
of June 30, 2009, USAID/Jordan had obligated $51.2 million and expended $38.8
million, which included $11.1 million for the private sector component of the SABEQ
Project (page 5).

The audit test results showed that USAID/Jordan is making progress toward meeting its
main goals to improve Jordanian private sector competitiveness and increase jobs
available to Jordanians by the end of FY 2011 (pages 6–7).

In FY 2008, USAID/Jordan reported that annual exports from Jordan to both the United
States and non-U.S. countries had increased by more than $78 million. In addition, the
mission reported that more than 1,400 university graduates had joined the workforce as
a result of U.S. Government-supported training and that more than 410 small and
medium-sized enterprises had enhanced their business prospects.

The SABEQ Program focuses on four components: (1) financial integrity, oversight, and
broadened capital markets; (2) expanded trade and investment; (3) removal of
Government of Jordan constraints on the private sector; and (4) enhanced productivity.
The audit reviewed activities associated with enhanced productivity in component four of
the project, which the contractor designed to improve the ability of the country’s private
sector to compete in a global economy and to increase the number of jobs available to
Jordanians (page 3).

Although USAID/Jordan and BearingPoint restructured the SABEQ Project’s private
sector component to reduce the numbers and scope of sector activities by about
75 percent from 13 sectors to 4, the project funding did not decrease. According to
mission officials, the amount of work to be performed remained the same, and more
effort was to be focused on fewer sectors to have a greater impact (page 5).

In FY 2009, another significant change occurred on the SABEQ Project. In February
2009, BearingPoint filed for Chapter 11 bankruptcy. In May 2009, Deloitte Consulting,
Limited Liability Partnership (Deloitte, LLP) acquired BearingPoint. In August 2009, the
Defense Contract Management Agency (DCMA) issued a novation agreement. 1
According the DCMA contract modification provided to USAID/Washington’s Office of
Acquisition and Assistance and other Federal agencies, the novation agreement among
BearingPoint and its subsidiaries, Deloitte, LLP, and the U.S. Government would be

1
 A novation is the substitution of one party in a contract with another. Federal Acquisition
Regulation 42.1204, “Applicability of Novation Agreements,” provides guidance on the transfer of
Government contracts from a contractor to a third party.


                                                                                          1
effective on May 29, 2009. The contract modification specified that a portion of current
contracts would be transferred to Deloitte, LLP (page 4).

Although USAID/Jordan’s SABEQ Project activities have achieved positive results based
on revised goals for improving private sector competitiveness to date, this report
recommends actions to address aspects of the mission’s program that should be
strengthened. Specifically, the audit found that USAID/Jordan should:

       require that audits of foreign organizations are conducted,
       review and test conflict of interest mitigating processes,
       review and obtain antiterrorism certifications, and
       update the performance management plan (pages 9–14).

USAID/Jordan’s comments in their entirety are included in appendix II.




                                                                                      2
BACKGROUND
Situated in one of the most politically volatile regions of the world, the Hashemite Kingdom
of Jordan (Jordan) has enjoyed economic and political stability since gaining its
independence in 1946. Today, Jordan is home to approximately 6 million people and
faces two challenges: high unemployment rates and low private sector competitiveness.
Jordan needs to tackle these challenges in order to achieve a level of sustainable
economic growth. The Government of Jordan has been a key U.S. partner in advancing
transformational diplomacy in the Middle East. Specifically, the Government of Jordan
has been an active participant in USAID assistance programs designed to promote
peace and security, democracy and governance, investments in people, and economic
growth.

Since 1998, USAID/Jordan has worked closely with the Government of Jordan on
activities focused exclusively on the country’s public sector and has played a pioneering
role in supporting economic reform goals. Consequently, many organizations have
conducted studies to identify sectors where the country most likely would be competitive,
including a 2-year export strategy that USAID designed to identify the products that
could be promoted and exported in different international markets in 2004.

In 2006, USAID/Jordan continued assistance programs to develop program activities
designed to increase private sector activities during fiscal years (FYs) 2007–2011.
Consequently, the mission implemented the Sustainable Achievement of Business
Expansion and Quality (SABEQ) Project to assist the Government of Jordan in stimulating
the country’s economy. The project was developed to assist the Jordanian government by:

            Strengthening/building financial integrity and oversight and broadening capital
             markets;
            Expanding trade and investment;
            Removing Government of Jordan constraints on the private sector; and
            Enhancing competitiveness in global markets, strengthening or expanding the
             public sector reform process, and increasing the number of jobs available for
             Jordanians.

In September 2006, the mission awarded a 5-year, $69 million contract to BearingPoint,
Incorporated to develop and implement a major program to assist in enhancing Jordan’s
competitiveness in global markets, deepen the public sector reform process, and increase
the number of jobs available to Jordanians. The contractor identified 13 sectors to
approach, including the medical, pharmaceutical, textiles, agriculture, tourism, and
information communication technology sectors. The private sector component of the
SABEQ Project included existing sector, emerging sector, and new sector programs.

AUDIT OBJECTIVES
The Regional Inspector General/Cairo conducted this audit as part of its FY 2009 annual
audit plan to answer the following question:

          Is USAID/Jordan’s program to increase private sector competitiveness under the
           Sustainable Business Expansion and Quality (SABEQ) project achieving its
           goals?

Appendix I contains a discussion of the audit’s scope and methodology.
                                                                                       3
AUDIT FINDINGS
Based on a review of a statistical sample of 72 of 189 (38 percent) of the total project
activities, USAID/Jordan is making progress toward meeting its main goals to both
improve Jordanian private sector competitiveness and increase jobs available to
Jordanians by the end of fiscal year (FY) 2011. The mission’s FY 2008 Performance
Plan and Report reported that, as a result of the project’s activities, more than 1,400
university graduates have joined the workforce, and more than 410 small and medium-
sized enterprises have increased their business prospects. Mission officials report that
USAID/Jordan-supported job fairs in the cities of Amman, Karak, and Aqaba have been
successful in linking job seekers with employers. According to USAID/Jordan’s FY 2008
Performance Plan and Report, more than 3,270 job seekers found employment during
the job fairs. Moreover, the contractor reports that the value of exports from Jordan to
both the United States and non-U.S. countries has increased by more than $78 million
annually. The audit found that the contractor completed or partially completed 117 of
189 activities included in the work plans for FYs 2008 and 2009, and met or exceeded
planned results for 13 of the 15 randomly selected indicators tested.

In FY 2007, BearingPoint designed the SABEQ Project to include 13 sectors in
component four’s private sector activities, including projects in medical services, the
pharmaceutical and garment industries, and agriculture.          Although in FY 2008
USAID/Jordan and the contractor agreed on 13 sectors, a year later they agreed to
reduce the number of sectors to 10 and to link clusters of activities to outputs and
outcomes to refocus the program resources. In 2009, the mission and the contractor
further limited the SABEQ activities to four sectors—medical tourism; contract research
organizations; business process outsourcing; and energy, water, and environment
activities—as shown in table 1. USAID/Jordan asked BearingPoint to focus on activities
that would have the greatest impact on the Jordanian private sector, expecting that the
mission would be able to provide the remaining project funds on specific sectors that had
the most potential for success.

On August 21, 2009, after BearingPoint declared Chapter 11 bankruptcy, Deloitte
Consulting, LLP 2 purchased the company. After the Defense Contract Management
Agency issued a novation agreement recognizing the transfer of BearingPoint contracts
to Deloitte Consulting, LLP, USAID/Washington’s Office of Acquisition and Assistance
issued a modification that applied the novation to all of BearingPoint’s contracts with
USAID retroactive to May 2009. In May 2009, during the third year of the 5-year project,
USAID/Jordan had obligated $51.2 million and disbursed $37.2 million of $69 million for
the SABEQ Project. On June 30, 2009, USAID/Jordan had expended $38.8 million,
which included $11.1 million for the private sector component of the SABEQ Project. Of
the $11.1 million allocated for the private sector component, the contractor has awarded
grants valued at $2.8 million.

USAID/Jordan and its contractor expect that reducing the scope of the private sector
component of the project will capitalize on Jordan’s educated workforce, enhance
Jordan’s competitiveness in global markets, and increase the number of jobs available for
Jordanians in four private sector areas. Table 1 shows details regarding the sector
evolution since the start of the project.


2
  Deloitte Consulting, LLP, is the consulting division of Deloitte & Touche LLP. Its services
include human capital, strategy and operations, and technology. In this report, the contractor of
record will be noted as BearingPoint.
                                                                                           4
Table 1. Private Sector Focus From FY 2007 to FY 2009

FY 2007                          FY 2008                         FY 2009
Medical Services                 Medical Services                Medical Tourism
Pharmaceuticals                  Pharmaceuticals                 Contract Research
                                                                 Organizations
Garments                         Packaging                       Business Process
                                                                 Outsourcing
Packaging                        Agriculture                     Energy, Water, and
                                                                 Environment
Agriculture                      Information Communication
                                 Technology
Tourism                          Business Process
                                 Outsourcing
Information Communication        Architecture and
Technology                       Engineering
Business Process                 Research and Development
Outsourcing
Architecture and Engineering     Light Manufacturing
Research and Development         Energy, Water, and
                                 Environment
Light Manufacturing
Energy, Water, and
Environment
Local Economic
Development

A comparison of actual to planned results for 13 of the 15 selected indicators showed
achievement levels of 100 percent (see appendix III). The results for the remaining two
indicators fell below target. According to the contractor, the lower result for the indicator
“number of firms receiving U.S. Government assistance that obtain certification with
voluntary standards or regulations in international quality control, environmental and
other process” was due to a slow start of the activity to create medical services
accreditation under SABEQ’s private sector component during FY 2008. The second
indicator that fell below target, “the number of women’s organizations-associations
assisted as a result of U.S. Government interventions,” did not achieve its planned
results because of a revision of the indicator that reduced the pool of eligible
organizations from those that maintained divisions dealing with women’s issues to those
that dealt exclusively with women’s issues. Appendix III contains a list of indicators and
activity results for FYs 2008 and 2009.

From October 1, 2007, to September 30, 2009, the contractor completed or partially
completed 117 of 189 of the SABEQ Project’s private sector activities that supported the
mission’s goals of enhancing Jordan’s private sector competitiveness and increasing the
number of jobs available for Jordanians. These activities included various training
sessions, the creation of call centers, marketing campaigns, and career fairs. During FY
2008, the contractor completed 49 percent or 42 of the 85 activities planned (see
appendix IV). During FY 2009, the contractor completed 72 percent or 75 of the 104
activities planned (see appendix V). According to mission and contractor officials,
USAID/Jordan and the contractor canceled 53 of the planned 189 project activities for both
fiscal years. USAID/Jordan requested that BearingPoint focus on activities that would
have the greatest impact on the Jordanian private sector, expecting that the mission
would be able to provide the remaining project funds for specific sectors that had the
most potential for success. As a result, the mission cancelled activities in the sectors of
                                                                                           5
tourism and garment industry. Mission officials stated the USAID/Jordan reallocated
funding for these activities to support other activities, including contract research
organizations. Table 2 shows details regarding the summary of the SABEQ Project’s work
plan activities for the private sector component.

Table 2. Summary of Work Plan Activities for FYs 2008 and 2009

                     FY 2008 Work      FY 2009 Work      Total Number      Percentage of
                     Plan Activities   Plan Activities    of Activities    Total Activities
Completed                  26                36                62                33%
Partially                  16                39                55                29%
Completed
Canceled                    34               19                 53               28%
Planned                     9                10                 19               10%
          TOTAL             85              104                189              100%

The activities specified in the work plans for FYs 2008 and 2009 focused on three major
program areas:        a grant program, technical assistance, and training.      Notable
achievements in these three program areas are discussed below.

Grant Program: As of October 5, 2009, the contractor had awarded 43 grants valued at
$2.8 million to targeted private sector organizations (see appendix VI). The contractor
designed the grant program to provide funding to various organizations for institution
building and to support unfunded private sector competitiveness activities. Examples of
some of the reported accomplishments under the grant program for three grantees that
received approximately $403,000 are discussed below.

         The Jordan Exporters and Producers Association for Fruits and Vegetables (JEPA)
          received two grants valued at $61,059.

          o   JEPA used market intelligence to identify the best markets for Jordanian
              products with the highest revenue potential and the best produce that the
              country could grow to fill gaps in international markets.

          o   Local Jordanian pomegranate producers, responsible for about 60 percent of
              the crop production from two main areas of poverty, benefited from training
              that JEPA designed to demonstrate new procedures and methods in
              integrated crop management. During the training, entrepreneurs shared their
              practices with farmers to enhance skills regarding improved product quality,
              increased productivity, and a potential for more job opportunities. JEPA
              selected the farms of three entrepreneurs as best practice models because
              these farms had high export potential based on fertilizer management,
              pruning, specialized irrigation technologies, and marketing.

         Al Huson University used $144,379 in grant funding to build the first Jordanian
          career development center. The career development center has conducted
          workforce development workshops and seminars to improve participants’ skills.
          According to the university’s records, 1,043 university graduates attended 73
          training workshops organized by the career development center at Al Huson
          University from September 2007 to September 2009. Approximately 612
          university graduates received internships that resulted in permanent positions. 3


3
    Reported data were unaudited.
                                                                                         6
      In May 2009, the Information Technology Association of Jordan (INTAJ) funded
       an internship program valued at $197,316 from grant funding. As a collaborative
       effort, the Jordanian government established a Web site where information
       technology (IT) graduates could submit resumes for internships with private
       companies. INTAJ provided 2 weeks of soft skills training followed by an 18-
       month internship with a private company. The Government of Jordan and the
       private companies paid half of each graduate’s salary for the first 12 months. For
       the remaining 6 months, the government paid 25 percent of the graduates’
       salaries while the private companies paid the remainder of the salaries and
       benefits. According to contractor’s records, Jordanian businesses had hired 160
       graduates as interns as of October 2009.

Technical Assistance: During FY 2008, the contractor completed or partially completed
22 of 48 technical assistance activities under the SABEQ Project’s private sector
component. Accomplishments under these activities included:

      The creation and implementation of a strategy and call center for the business
       process outsourcing sector

      The enhancement of nursing profession standards

      A salary and benefits survey for the pharmaceutical sector

      An agreement to facilitate cooperation between private sector and research and
       development institutions

      The identification of improvements for sector competitiveness through research
       and development activities

      The identification and creation of export opportunities for manufacturing
       companies pursuing European Health Authority accreditation

Training: The contractor provided training activities to support study tours, participation in
international exhibitions, and conferences from 2007 to 2008. These activities included
training in institutional development, capacity building, and strategic development that
benefited private hospital associations, sector associations, counterparts, and agricultural
cooperatives.       In addition, various information, communication and technology
organizations provided national and regional job fairs and workshops. The contractor
reported specific achievements under these activities that included the following:

      Training to educate farmers about the adoption of new agricultural technologies
       during on session

      Training 30 representatives of public and private sector organizations to develop an
       agreement for improved cooperation between private sector and research and
       development institutions

      Training medical sector participants to increase international buyer-seller linkages

Although these successes contributed to major achievements for the SABEQ Project’s
private sector development, the audit identified four issues that the mission should
address to improve its overall administration of the SABEQ program.

       Requiring financial audits of foreign for-profit organizations
                                                                                              7
        Reviewing and testing conflict-of-interest mitigating processes

        Reviewing and updating antiterrorism certifications

        Updating the performance management plan


USAID/Jordan Should
Require That Audits of Foreign
Organizations Are Conducted

    Summary: Automated Directives System (ADS) 591.3.2, Audits of Foreign
    Organizations and Host Government Entities, provides guidance on audits of
    foreign organizations to assess risk at least annually to determine when financial
    audits of foreign for profit organizations are warranted. This guidance further states
    that the prime recipient must impose the Guidelines for Financial Audits Contracted
    by Foreign Recipients on foreign subrecipients. Furthermore, ADS 591.3.6, USAID
    Audit Rights, clearly states that USAID retains the right to require audits or
    otherwise ensure adequate accountability of recipient organizations regardless of
    the audit requirement. USAID/Jordan did not ensure that audits of incurred costs
    were conducted on major local subcontractor organizations for the past 3 years.
    This occurred because of an oversight by USAID/Jordan and its prime contractor.
    As a result, USAID/Jordan increased its risks of financial loss and cannot ensure
    that its program funds were used for intended purposes.

Automated Directives System (ADS) 591.3.2, Audits of Foreign Organizations and Host
Government Entities, provides guidance on audits of foreign organizations. Specifically,
ADS 591.3.2.1, Foreign Organizations, states that a mission must assess risk at least
annually to determine whether financial audits of foreign for-profit organizations are
warranted. Furthermore, ADS 591.3.2.1 requires a Federal cognizant agency or
independent auditor to audit the direct and indirect costs 4 incurred under an award to
determine allowable direct costs and to recommend indirect cost rates. The USAID
guidance states that the prime recipient must impose the Guidelines for Financial Audits
Contracted by Foreign Recipients on foreign subrecipients. These guidelines state that
USAID agreements with foreign recipients require recipients to contract independent
auditors acceptable to USAID’s Office of Inspector General (OIG) to perform financial
audits of the funds provided under the agreements. 5 In addition, ADS 591.3.6, USAID
Audit Rights, clearly states that USAID retains the right to require audits or otherwise
ensure adequate accountability of recipient organizations regardless of the audit
requirement.

Only one of the three major subcontractors conducted a review of its indirect cost rate
structure in FY 2008. Although some subcontractors agreed to have an annual audit
performed and a review of their indirect cost rate structure by an independent audit firm

4
  According to the Federal Acquisition Regulation, a direct cost is any cost that can be identified
with a particular final cost objective, and an indirect cost is any cost that is not directly identified
with a single, final cost objective but can be identified with two or more final cost objectives, such
as rent, utilities, and supplies.
5
  Such audits are in accordance with the Inspector General Act of 1978, as amended. The OIG
reserves the right to conduct audits using its own staff, notwithstanding acceptable audits
performed by other auditors, in cases where special accountability needs are identified.

                                                                                                      8
as a part of their proposal, two major subcontractors did not have audits conducted. In
fact, the two major subcontractors did not have audits conducted on their incurred costs
for awards valued at $6.91 million from FYs 2007 through 2009.

In total, BearingPoint awarded subcontracts valued at $22 million to 14 organizations.
These awardees included 3 U.S.-based and 11 Jordanian subcontractors. The
contractor awarded $10.2 million to the U.S.-based subcontractors and $11.8 million to
11 Jordanian subcontractors. Subcontracts to the Jordanian subcontractors accounted
for 85 percent of the local contracts awarded.

According to USAID/Jordan’s contracting officer’s technical representative (COTR), the
audits were not conducted for 3 years because of the lack of oversight by the prime
contractor and uninformed subcontractors whom the prime contractor had not notified.

In the absence of financial audits, USAID/Jordan increased its risks of financial loss and
could not ensure that funds had been used for intended purposes. Consequently, the
mission has not been aware of specific expenditures or been able to take actions to
recover unallowable costs. To determine the allowability of project costs, this audit
makes the following recommendations:

   Recommendation No. 1: We recommend that USAID/Jordan develop and
   implement procedures to require the prime contractor to periodically conduct
   independent financial reviews of for-profit local subcontractors’ incurred costs
   to determine if audits are warranted.

   Recommendation No. 2: We recommend that USAID/Jordan notify the prime
   contractor in writing of requirements to conduct incurred costs audits
   annually, as required by the Guidelines for Financial Audits Contracted by
   Foreign Recipients.

   Recommendation No. 3: We recommend that USAID/Jordan develop a list of
   for-profit subcontractors that require independent financial audits for funding
   received for fiscal years 2007, 2008, and 2009; notify the local subcontractors
   in writing to conduct required audits; and develop a plan of action to conduct
   these audits.

   Recommendation No. 4: We recommend that USAID/Jordan require its
   prime contractor to conduct audits of incurred costs for fiscal years 2007,
   2008, and 2009, and document and develop a plan of action to conduct
   these audits.


USAID/Jordan Should
Review and Test Conflict-of-
Interest Mitigating Processes

  Summary: ADS 596, Management’s Responsibility for Internal Control, requires
  managers to develop and implement appropriate, cost-effective internal controls
  that reasonably ensure that assets are safeguarded against waste, loss,
  unauthorized use, or misappropriation. Two SABEQ staff members had substantial
  interests in subcontractor companies hired under USAID/Jordan’s SABEQ Project
  that created potentially unfair competitive advantages.      Although mission
  documentation showed that Deloitte officials disclosed the potential conflict of
                                                                                        9
  interest in change of key personnel requests addressed to the mission,
  USAID/Jordan‘s contracting officer stated that the mission was not made aware of
  the issue. As a prudent management practice, the mission should exercise
  management oversight to ensure that its contractors do not have professional or
  personal conflicts of interest and review mitigating processes as a safeguard to
  ensure that improprieties are discovered and defused in order to avoid corruption.

ADS 596, Management's Responsibility for Internal Control, requires managers to
develop and implement appropriate, cost-effective internal controls which reasonably
ensure that assets are safeguarded against waste, loss, unauthorized use, or
misappropriation. Furthermore, the U.S. Government Accountability Office’s Standards
for Internal Controls in the Federal Government states that managers should review
activities at the functional and activity levels. Management review and knowledge of
critical communications and events allows officials to assess risks to operations and
review and test mitigating controls to ensure effectiveness and efficiency. Generally, as
defined by USAID Contract and Information Bulletin 99-17, Organizational Conflict of
Interest, USAID policy precludes a contractor from furnishing implementation services as
the prime contractor or subcontractor when the contractor has a substantial role in the
design of an activity under contract with USAID. The audit disclosed two potential
conflicts of interest:

      The current Deloitte, LLP, chief of party for the SABEQ Project was the former
       SABEQ productivity component leader in charge of the overall leadership and
       management of the private sector component from 2007 to September 2008 and
       is also the cofounder and chief executive officer of the Arabian Business
       Consultants for Development (ABCD), a SABEQ Project subcontractor.

      A major local subcontractor under the SABEQ Project who was a productivity
       component leader from September 2008 through August 2009 is also the owner
       and managing director of a company that performed work related to
       competitiveness strategy development for the SABEQ Project in 2007 and 2008.

These two officials have interests in subcontractor companies of Deloitte, LLP, under the
SABEQ Project and are also overseeing and evaluating work performed by their
competitors. Consequently, based on their official capacities as SABEQ subcontractors,
both have unfair competitive advantages since each has access to competitors’
confidential information. Such potential conflicts of interest or appearances of conflicts
of interest could compromise and possibly corrupt regular business operations.

USAID/Jordan’s COTR provided documentation to the audit team that showed that
Deloitte, LLP, notified the mission of the potential conflicts of interest in two personnel
change requests dated June 19 and July 30, 2008. However, the COTR did not elevate
these issues to mission management to determine whether adequate controls were put
into place to mitigate any potential conflicts of interest. Although Deloitte noted that the
company had “a rigorous process for competitively reviewing use of subcontractors for
particular tasks to avoid any conflicts of interest,” USAID/Jordan’s contracting office staff
stated that they were not aware of the documents disclosing Deloitte’s personnel
changes or the company’s rigorous process for competitively reviewing the use of
subcontractors for particular tasks. Consequently, USAID/Jordan’s contracting officer
did not review Deloitte’s process to ensure that the company mitigated the risks or
perceived risks of potential conflicts of interest or appearances of conflicts of interest.

Deloitte, LLP officials managing the SABEQ Project stated that the managing director of
a company subcontracted by the SABEQ Project was not involved in the management of
                                                                                    10
the company during tenure as a component leader. However, documentation showed
that the managing director continued to sign documents related to the SABEQ Project on
behalf of a company owned at least 5 months after the managing director became a
SABEQ Project component leader.

Effective management controls require oversight of operations and functions to ensure
efficiency. Documentation and supervisory review are basic and fundamental tools
available to managers to help ensure that Federal resources are safeguarded against
fraud, waste, and abuse. Although the presence of a conflict of interest is independent
from the execution of impropriety, if discovered, conflicts or potential conflicts of interest
should be voluntarily and expeditiously defused before any corruption occurs. As a
prudent management control, the mission should establish procedures to maintain
effective management oversight to verify contractors’ compliance with personal conflict-
of-interest safeguards. Therefore, this audit makes the following recommendation:

   Recommendation No. 5: We recommend that USAID/Jordan contracting
   officers document the review of the implementing partner’s processes to
   mitigate the risk or perceived risks of a conflict of interest to determine
   whether there are substantial advantages in competition or whether the
   overall competitiveness in bidding processes has been impacted negatively.


USAID/Jordan Should
Review and Obtain
Antiterrorism Certifications

  Summary: Section H.17 (d) of the SABEQ contract states that requirements which
  apply to USAID-executed grants shall also apply to grants signed by contractor.
  Moreover, ADS 596.3.1.c, Establishing Internal Controls, states that in order for
  control activities to be effective and efficient to accomplish Agency objectives,
  management must conduct reviews at the functional and activity level. Although
  required to do so by the contract, BearingPoint did not obtain antiterrorism
  certifications from grantees under the SABEQ contract and as a management control,
  USAID/Jordan did not verify that the contractor obtained the required certifications.
  BearingPoint officials stated that they were not aware of the requirements. As a
  result, USAID/Jordan cannot be reasonably assured that USAID funds have not been
  knowingly used to provide support to entities or individuals associated with terrorism.

Management controls and contractual requirements provide the basis for minimal
requirements to ensure that program goals are achieved efficiently and effectively. ADS
596.3.1.c, Establishing Internal Controls, states that in order for control activities to be
effective and efficient to accomplish Agency objectives, management must conduct reviews
at the functional and activity level. As a specific contractual requirement, Section H.17 (d)
of the SABEQ contract states that requirements, that apply to USAID-executed grants shall
also apply to grants signed by contractor. Executive Order 13224 prohibits transactions
with, and the provision of resources and support to, individuals and organizations
associated with terrorism. The antiterrorism certification is used to provide USAID with
assurance that the Agency is not entering into an assistance agreement with an
individual or organization that provides or has provided assistance to terrorists or
terrorist activity. The antiterrorism certification requires an applicant to state that “to the
best of its current knowledge, it did not provide, within the previous ten years, and it will
take all reasonable steps to ensure that it does not and will not knowingly provide,
material support or resources to any individual or entity that has engaged or engages in
                                                                                             11
terrorist activity.” As a part of USAID/Jordan’s contract with BearingPoint, the contractor
was required to abide by all requirements that applied to USAID-executed grants.

USAID/Jordan included the antiterrorism clause in its contract with the SABEQ Project
contractor. According to antiterrorism clause requirement in the SABEQ contract, the
contractor is required to include the clause in all subcontracts and grants under the
contract. However, USAID/Jordan did not, as a minimal management control, verify that
the contractor obtained the required antiterrorism certifications for grants awarded under
the SABEQ contract.

The contractor stated that staff was not aware of the certification requirement under
AAPD 04-14 and that USAID/Jordan did not provide any guidance on this issue. As a
management control, USAID/Jordan’s contracting officer stated that mission checked
some of the contractor’s key personnel and some subcontractors against the
Department of Treasury’s Excluded Parties List System before awarding the SABEQ
contract.

Management control activities are an integral part of a mission’s accountability for the
stewardship of government activities. These control activities include verifications that
provide evidence of the execution of the required activities as well as appropriate
documentation so that management can compare actual performance to requirements.
If USAID missions do not remind implementers about USAID’s antiterrorism
requirements and do not periodically verify that procedures are followed, both the
Agency and USAID/Jordan will not be assured that their programs do not knowingly
provide support to entities or individuals associated with terrorism.         Given the
sensitivities, complexities, and visibility of antiterrorism issues, we believe that the
mission could benefit from internal procedures until more formal USAID/Washington
guidance is finalized and publicized. Accordingly, this audit makes the following
recommendations:

   Recommendation No. 6:          We recommend that USAID/Jordan provide
   instruction to its prime contractor to obtain and review antiterrorist
   certifications for grants under the SABEQ contract, and implement specific
   procedures to require its prime contractor to obtain antiterrorism certifications
   before awarding any new grant.

   Recommendation No. 7: We recommend that USAID/Jordan implement
   specific procedures as a notice to remind its prime contractor of the
   antiterrorism certification requirements, and periodically verify that
   procedures are followed.


USAID/Jordan Should Update
Its Performance Management
Plan

  Summary: ADS 203.3.4.6, Updating Performance Management Plans, states that
  usually, as part of an operating unit’s annual portfolio review process, operating
  units should update these plans regularly with new performance information as
  programs develop and evolve. Despite the requirement, USAID/Jordan has not
  updated its performance management plan for its SABEQ Project activities for the
  past 3 years, although the mission revised the project’s scope. According to
  mission officials, the plan was not updated because the economic growth portfolio
                                                                                        12
    had not changed since 2007 and projects continued to reflect the status of the
    portfolio. Without an updated plan, USAID/Jordan lacks a critical tool for planning,
    managing, and documenting the performance of its program activities.


ADS 203.3.3, Performance Management Plans, notes that a performance management
plan is a “tool to plan and manage the process of monitoring, evaluating, and reporting
progress towards achieving an assistance objective.”        ADS 203.3.4.6, Updating
Performance Management Plans, states that usually, as part of their annual portfolio
reviews, USAID missions should update these plans regularly with new performance
information as programs develop and evolve. Further, Section E of USAID/Jordan’s
performance management plan states that the mission’s economic growth office staff is
required to review and update the document annually in conjunction with activity
implementation reviews.

USAID/Jordan’s Economic Growth Office has not updated its performance management
plan for the past 3 years. The mission and its contractor made adjustments at the end of
year three to focus and improve the program performance. According to the COTR,
neither the focus of the economic growth office nor the portfolio has changed since
2007. Furthermore, the modification of the performance management plan was not
necessary since it continued to reflect the status of the portfolio. The COTR also stated
that the mission submitted a new strategic statement 6 for FYs 2010–2014 on October
12, 2009. After USAID/Washington approves the new strategy, mission officials plan to
update the performance management plan to reflect the changes and include new
indicators where appropriate.

Without an updated performance management plan reflecting current activities,
USAID/Jordan does not have a critical tool for planning, managing, and documenting the
performance of its program activities. Since the mission has revised and decreased its
SABEQ activities from 13 to 4 focus areas, managers and reviewers will not be able to
rely on the performance management plan to provide the most up-to-date information to
measure progress or make management decisions regarding funding. Therefore, this
audit makes the following recommendation:

     Recommendation No. 8: We recommend that USAID/Jordan develop and
     implement procedures that require the contracting officer’s technical
     representative to review and update the project’s performance management
     plan and require current activities to be documented.




6
  The mission created a strategic statement as a document to guide its programming by using
information on its programs to help it achieve desired results in a specific country.
                                                                                           13
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Jordan’s comments and planned actions are partially responsive to the report
recommendations. In their response, USAID/Jordan mission officials generally agreed
with four recommendations and did not agree with four recommendations. For the
recommendations with which the mission agreed, USAID/Jordan made four
management decisions on recommendation nos. 2, 3, 5, and 8, and plans to take final
action on recommendation nos. 2 and 3 by June 30, 2010, and on recommendation 8 by
September 30, 2010. The mission took final action on recommendation no. 5.

Regarding recommendation no. 1, USAID/Jordan did not agree with the
recommendation to develop and implement procedures to require the prime contractor to
periodically conduct independent financial reviews of local subcontractors incurred costs
to determine if audits are warranted. Although USAID guidance stipulates a mission’s
right to require audits or otherwise ensure adequate accountability of recipient
organizations regardless of the audit requirement, USAID/Jordan did not think its staff
should be required to address subcontractor issues. Since the mission did not ensure
that its SABEQ prime contractor conducted any audits of USAID program funds for 3
years, the risk exposure to both USAID and the mission increased unnecessarily. A
management decision will be reached on the recommendation after USAID/Jordan
establishes a plan of action and target dates to implement specific procedures to require
its prime contractor to periodically conduct independent financial reviews of for-profit
local subcontractors’ incurred costs to determine if audits are warranted.

To address recommendation no. 2, USAID/Jordan generally agreed with the
recommendation to remind the contractor in writing of USAID contractual and audit
requirements.  Accordingly, a management decision has been reached on this
recommendation.

Regarding recommendation no. 3, USAID/Jordan agreed to request that its SABEQ
contractor develop a plan to remind its subcontractor to conduct required financial
audits.    Accordingly, a management decision has been reached on this
recommendation.

Regarding recommendation no. 4, USAID/Jordan did not clearly state its agreement or
disagreement with the recommendation. However, USAID guidance specifically states
that USAID retains the right to require audits or otherwise ensure adequate
accountability of recipient organizations regardless of the audit requirement. Since the
mission has not developed a plan of action or a target date for completion, a
management decision has not been reached on this recommendation.

Regarding recommendation no. 5, USAID/Jordan agreed with the recommendation and
stated that its Office of Economic Growth had obtained and reviewed documents of the
implementing partner’s processes to reasonably mitigate the risk or perceived risks of
potential conflicts of interest. Consequently, after a Regional Inspector General/Cairo
(RIG/Cairo) review of the implementing partner’s processes in this regard, a



                                                                                  14
management decision has been reached and the mission took final action required.

Regarding recommendation no. 6, USAID/Jordan did not agree with the
recommendation. While RIG/Cairo recognizes that AAPD 04-14 is not applicable to the
contract and revised the criteria accordingly, the mission awarded grants valued at $2.8
million under the BearingPoint contract. In accordance with Section H.17 (d) of the
SABEQ contract, “requirements which apply to USAID-executed grants shall also apply
to grants signed by contractor.” Since the mission did not ensure that its prime SABEQ
contractor obtained the required certifications before awarding the grants, the risk of
providing support to entities or individuals associated with terrorism increased
exponentially. A management decision will be reached on the recommendation after
USAID/Jordan establishes a plan of action and target dates to instruct its prime
contractor to obtain and review antiterrorist certifications for grants awarded under the
SABEQ contract, and implements specific procedures to require its prime contractor to
obtain the required antiterrorist certifications before awarding any new grants.

Regarding recommendation no. 7, USAID/Jordan did not agree with the
recommendation, and asserted that adequate and reasonable procedures and guidance
are already in place to mitigate the risk of financing terrorists. However, the mission did
not ensure that its contractor implemented these procedures and guidance.                 A
management decision will be reached on this recommendation after USAID/Jordan
establishes a plan of action and target dates to implement specific procedures designed
to remind its prime contractor of the antiterrorism certification requirements, and
periodically verify that procedures are followed.

To address recommendation no. 8, USAID/Jordan agreed with the recommendation and is
working to develop and implement procedures requiring the contracting officer’s technical
representative to review and update the project’s performance management plan and
documentation of the current activities.   Accordingly, RIG/Cairo believes that a
management decision has been reached on this recommendation.




                                                                                        15
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo (RIG/Cairo) conducted this performance audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. The purpose of this audit was to
determine whether USAID/Jordan’s program to increase private sector competitiveness
under the Sustainable Achievement of Business Expansion and Quality (SABEQ)
Project is achieving its goals. There were no prior audits associated with the areas
reviewed.

The scope of the audit was limited primarily to the fourth or private sector development
component of the SABEQ Project. The audit was performed in Jordan from September
23 through October 15, 2009, with updates through March 16, 2010. Fieldwork was
conducted at USAID/Jordan, the BearingPoint offices in Amman and Irbid, and at
selected grantees’ and counterparts’ offices in Amman to review implemented program
activities through June 30, 2009.

We reviewed and analyzed the activities supporting the established goals for increasing
private sector competitiveness and the number of jobs available to Jordanians. The
contractor reported monthly, quarterly, and annually on progress toward increasing
private sector competitiveness.

As part of the audit, we assessed the management controls used by USAID/Jordan to
monitor program activities. The assessment included controls related to documentation,
supervisory review, and separation of duties to determine whether USAID/Jordan and its
implementing partners (1) conducted and documented site visits to monitor quality and
evaluate progress, (2) required and approved an annual plan, (3) reviewed progress
reports submitted by the contractor, and (4) compared reported results with planned
results. We also reviewed the mission’s fiscal years 2008 and 2009 reports required by
the Federal Managers’ Financial Integrity Act of 1982, as well as the risk assessment
related to the antiterrorism financing.

As of June 30, 2009, USAID/Jordan had obligated $51.2 million and disbursed $38.8
million, including $11.1 for activities under the private sector component.

Methodology
To answer the audit objective, we interviewed officials from USAID/Jordan, the
contractor, and some grantees. We also reviewed and analyzed relevant documents at
both mission and contractor offices. The documentation included the performance
management plan, the contract between USAID/Jordan and the contractor,
subcontracts, and some grant agreements. We further reviewed contractor site visit and
other monitoring reports, progress reports, and financial records.



                                                                                 16
                                                                             APPENDIX I



To determine whether USAID/Jordan’s program to increase private sector
competitiveness under the SABEQ Project is achieving its goals, we reviewed the
accomplishments reported in the implementing partner’s quarterly reports and compared
actual accomplishments with the specific outputs as defined in the approved annual
plans. The comparison included examining supporting records for completed and
substantially completed activities for evidence that the expected results were achieved.
RIG/Cairo considered partially completed activities as activities that contained multiple
deliverables at various stages, including completed, in progress, and canceled activities.
In addition, we conducted site visits to the implementing partner offices in Amman and
one of its satellite offices in Irbid to verify reported data.

The audit team also reviewed the mission’s compliance with requirements to document
program performance. The compliance requirements included Automated Directives
System Chapters 200, Introduction to Programming Policy; 201, Planning; 202,
Achieving; and 203, Assessing and Learning; the contract; and other applicable policies,
procedures, and management controls. We then evaluated the mission’s compliance
with the relevant program management controls and policies.

To determine the impact of the results achieved, we interviewed USAID/Jordan’s
officials, implementing partners, and beneficiaries. We also reviewed the mission’s and
implementing partners’ reported data. We further discussed activities with grantees and
counterparts during our site visits.

We selected and performed a statistically projectable sample at the 90 percent
confidence level with a 5 percent error rate. The resulting sample consisted of 72
activities (38 percent) activities from a universe of 189 activities implemented in the
private sector from October 2007 to September 2009. The results of this testing were
deemed appropriate. In assessing the project’s progress toward its overall goals, we
established a materiality threshold of 90 percent. If the program’s work plans adequately
reflected the program goals and the contractor had achieved at least 90 percent of its
planned outputs during the audit period, the program was judged to be making
acceptable progress toward its overall goals.




                                                                                       17
                                                                              APPENDIX II



MANAGEMENT COMMENTS

OFFICE OF THE DIRECTOR


MEMORANDUM

TO:            Jacqueline Bell, Regional Inspector General/Cairo

FROM:          Jay L. Knott, Mission Director

DATE:          March 15, 2010

SUBJECT:       Management’s Comments on the Audit of USAID/Jordan’s Sustainable
               Achievement of Business Expansion and Quality (SABEQ) Project
               (Draft Audit Report No. 6-278-10-XXX-P dated February 15, 2010)


USAID/Jordan would like to thank the RIG/Cairo audit team for their efforts on this audit.

The following represents Mission Management’s comments and documents both actions
already taken and actions planned to be undertaken to address the recommendations
contained in the report.

Recommendation No. 1: We recommend that USAID/Jordan develop and
implement procedures to require prime contractors to periodically conduct
independent financial reviews of for-profit local subcontractors’ incurred costs to
determine if audits are warranted.

Under the terms of the contract with Deloitte Consulting (formerly BearingPoint) and
ADS 591, USAID’s legal relationship is with Deloitte Consulting, as the prime contractor
under SABEQ, and not with its subcontractors. Accordingly, pursuant to ADS 591.3.2.1
and FAR 52.215-2 (Audit and Records – Negotiation), it is the prime contractor’s
responsibility to include the FAR Audit and Records clause in all subcontracts that
exceed the simplified acquisition threshold and to establish a system for monitoring its
subrecipients.

Accordingly, USAID/Jordan is not in agreement with this recommendation because a
Mission-level process would not be the appropriate venue to address subrecipient-level
issues. In fact, ADS 591.3.2.1 states that “subrecipients must submit copies of their
audits to the prime recipient for review by their independent auditor as part of the prime’s
annual audit.” In this case, as Deloitte Consulting is a U.S. For-Profit Organization, ADS
591.3.1.2 requires that audit risks associated with Deloitte Consulting, and its
subcontracts, be assessed by M/OAA/CAS in order to determine when an audit is


                                                                                     18
                                                                              APPENDIX II


required. As such, any process or procedure identified in this recommendation should be
developed at the Washington-level and implemented Agency-wide, applicable to all
contractors, rather than just to a specific project such as SABEQ.

In addition, the Mission already has procedures in place to audit its recipients and
associated risk. The Mission develops an annual audit plan that it sends to the RIG and
the Mission prepares a financial review and risk assessment plan for recipients that do
not fall under the recipient-contracted audit requirement. Starting FY 2010, financial
reviews and risk assessments will also include procedures to verify whether recipients
are fulfilling audit requirements for all sub-recipients reaching the relevant dollar amount
thresholds.

Recommendation No. 2: We recommend that USAID/Jordan notify prime
contractors in writing of requirements to conduct incurred costs audits annually,
as required by the Guidelines for Financial Audits Contracted by Foreign
Recipients.

As noted in the response to Recommendation No. 1, the required FAR Audits and
Records clause was included in USAID’s contract with Deloitte Consulting and is
required to be included in Deloitte Consulting’s subcontracts. In fact, the OIG’s
Guidelines for Financial Audits Contracted by Foreign Recipients states that for
subrecipients expending $300,000 or more in USAID awards in their fiscal year, “USAID
standard audit provisions require that recipients ensure that audits of subrecipients are
performed annually in accordance with these Guidelines.”

Accordingly, USAID/Jordan is not in agreement with this recommendation, insofar as it is
recommending the implementation of a new notification requirement, because the prime
contractor, Deloitte Consulting in this case, was already notified through its contract with
USAID of its audit responsibilities and its responsibilities with regard to its
subcontractors. However, given the concerns expressed by the RIG/Cairo audit team,
USAID/Jordan agrees to officially remind Deloitte Consulting in writing of requirements
as stated in its contract with USAID, in ADS 591 and in the OIG’s Guidelines for
Financial Audits Contracted by Foreign Recipients. The Mission will also request that
Deloitte Consulting prepare a plan to meet these requirements and the Mission will
monitor the implementation of that plan. Further, the Mission will suggest to Deloitte
Consulting that it perform independent financial reviews of all required foreign
subrecipients vs. the required risk assessment, due to the materiality of the subcontracts
and time remaining in the activity. Upon completion of the financial reviews, the Mission
will review Deloitte Consulting’s determination of whether audits are required and if so
request an implementation plan and monitor it until completion.

Recommendation No. 3: We recommend that USAID/Jordan develop a list of for-
profit subcontractors that require independent financial audits for funding
received for fiscal years 2007, 2008, and 2009; notify the local subcontractors in
writing to conduct required audits; and develop a plan of action to conduct these
audits.

As noted in the response to Recommendation No. 1, USAID’s legal relationship is with
Deloitte Consulting, and not with Deloitte Consulting’s subcontractors. Accordingly, it is
Deloitte Consulting’s responsibility to monitor the compliance of its subrecipients with the
terms of their contracts, including audit requirements.


                                                                                         19
                                                                              APPENDIX II


Accordingly, USAID/Jordan is not in agreement with this recommendation, as it is not the
Mission’s responsibility to communicate directly with subcontractors. In fact, for U.S.
contractors and recipients, ADS 591.3.4.1 states the following:

     “Missions must include all agreements with U.S. contractors and recipients,
     including fixed price contracts, fixed obligation grants, and cash transfer and
     nonproject assistance awards, in their audit inventories and confirm that they are
     included in the M/OAA/CAS audit inventory. Subrecipient agreements are
     not to be included in the audit inventory or annual audit plan.”

For foreign contractors and recipients, ADS 591.3.4.2 states:

       “Missions must maintain an inventory of all contracts, grants, and cooperative
       agreements, including cash transfer and nonproject assistance awards,
       awards financed with host country-owned local currency, and activities in
       nonpresence countries for use in determining audit requirements. The
       inventory or annual audit plan does not include subrecipient
       agreements.”

USAID/Jordan’s written reminder to Deloitte Consulting, as agreed to under
Recommendation No. 2, will include as request for a plan for meeting requirements in
connection with its subcontracts, as detailed above.

Recommendation No. 4: We recommend that USAID/Jordan require its prime
contractor to conduct audits of incurred costs for fiscal years 2007, 2008, and
2009, and document and develop a plan of action to conduct these audits.

As noted above, Deloitte Consulting is a U.S. for-profit organization, and therefore
M/OAA/CAS is responsible for assessing risk associated with Deloitte Consulting and
determining whether it should be audited. Pursuant to ADS 591.3.2.1 and FAR 52.215-2
(Audit and Records – Negotiation), it is the prime contractor’s responsibility to include
the FAR Audit and Records clause in all subcontracts that exceed the simplified
acquisition threshold and to establish a system for monitoring its subrecipients.

USAID/Jordan’s written reminder to Deloitte Consulting, as agreed to under
Recommendation No. 2, will serve as a reminder to Deloitte Consulting of its
responsibilities with regard to its subcontracts and USAID will monitor the related plan
for meeting such responsibilities.

Recommendation No. 5: We recommend that USAID/Jordan contracting officers,
document the review of the implementing partner’s processes to mitigate the risk
or perceived risks of a conflict of interest to determine whether there are
substantial advantages in competition or whether the overall competitiveness in
bidding processes has been impacted negatively.

USAID/Jordan takes issues relating to conflicts of interest very seriously and expects the
same of its implementing partners. In fact, although not required to follow all ethics rules
that are applicable to federal employees, contractors are expected to have a satisfactory
record of integrity and business ethics as determined by the Agency at the pre-award
responsibility determination stage (FAR 9.104.1), and most follow internal codes of



                                                                                          20
                                                                             APPENDIX II


conduct.

In this case, a review of the relevant documentation (See Attachments) shows that
USAID/Jordan, through its Office of Economic Growth, had obtained and reviewed
documents of the implementing partner’s processes to reasonably mitigate the risk or
perceived risks of potential conflicts of interest, and the Mission believed these
processes adequately responded to the issue. This communication was saved in the
files of the Contracting Officer’s Technical Representative.

Accordingly, USAID/Jordan is in agreement with this recommendation and the related
review and documentation was already carried out in the course of on-going contract
management.

Recommendation No. 6: We recommend that USAID/Jordan create and document
procedures that require the Mission’s contracting officer to obtain and review
antiterrorist certifications from the implementing partner.

AAPD 04-14 is a policy directive that is applicable only to assistance instruments. The
SABEQ program is being implemented through a contract, which is an acquisition
instrument. There is no similar certification requirement for acquisition instruments.
There is, however, a required contract clause on terrorism financing. This clause,
relating to the Executive Order on Terrorism Financing (Feb 2002), can be found in
Section H.11 of the contract with Deloitte Consulting and it states:

       “The Contractor/Recipient is reminded that U.S. Executive Orders and U.S.
       law prohibits transactions with, and the provision of resources and support to,
       individuals and organizations associated with terrorism. It is the responsibility
       of the contractor/recipient to ensure compliance with these Executive Orders
       and laws. This provision must be included in all subcontract/subawards
       issued under this contract/agreement.”

There are also other processes in place at the Mission to mitigate the risk of terrorist
financing, including:

      Names of contractors and grantees/cooperative agreement recipients are
       checked against the Specially Designated Nationals List (“SDN” list)
       administered by the Department of the Treasury’s Office of Foreign Assets
       Control (“OFAC”) (see ADS 302.3.6.13 and 303.3.9 or successor policy)

      FAR clause 52.225-13, which prohibits purchase of supplies or services in
       OFAC-barred transactions, is included in all contracts (see ADS 302.3.6.13 or
       successor policy). See also, Section I.1 of the contract with Deloitte Consulting.

      Prior to making an award, the Contracting Officer makes a responsibility
       determination for the contractor, which will also consider any information
       available concerning terrorist affiliation (See ADS 302.3.6.5 and 303.3.9 or
       successor policy).

      Prior to awarding a contract, the Contracting Officer makes a responsibility
       determination on the awardee. This is in accordance with FAR 9.104-1 and



                                                                                           21
                                                                         APPENDIX II


      ensures that the awardee has a satisfactory record of integrity and business
      ethics. USAID also confers with the Embassy RSO to ensure that the awardee
      has no known terrorist affiliation.

   Finally, beginning in 2009, the Mission annually reviews all USAID programs in
   Jordan in order to record the Mission’s compliance with terrorist financing guidance
   approved by Deputy Secretary of State Negroponte in February 2008. In August
   2009, after consultation with USAID/SEC and Post’s RSO Office, the Mission
   concluded that all USAID/Jordan programs were low risk.

   Accordingly, USAID/Jordan is not in agreement with this recommendation, as AAPD
   04-14 does not apply to contract recipients.

   Recommendation No. 7: We recommend that USAID/Jordan create and
   document procedures that require providing guidance on USAID’s
   antiterrorism requirements to its implementers.

   As noted in the response to Recommendation No. 7, there are several processes
   being followed in order to mitigate the risk of terrorist financing. For the SABEQ
   project, the required terrorism financing clause was included in Section H.11 of
   USAID’s contract with Deloitte Consulting and is required to be included in all
   subcontracts and subawards.

   Accordingly, USAID/Jordan is not in agreement with this recommendation, given that
   adequate and reasonable procedures and guidance are already in place.

   Recommendation No. 8: We recommend that USAID/Jordan develop and
   implement procedures that require the contracting officer’s technical
   representative to review and update the project’s performance management
   plan and require current activities are documented.

   USAID/Jordan is in agreement with this finding. The Mission’s Office of Economic
   Growth will work to develop and implement procedures requiring the contracting
   officer’s technical representative to review and update the project’s performance
   management plan, as well as requiring documentation of current activities.



   Attachments:

Attachment 1: Key Personnel Change request for Laith Qasem.
Attachment 2: Key Personnel Change request for Nisreen Barakat.
Attachment 3: Accessing Local Subcontractors.
Attachment 4: Approval Process and Payment Documentation for Events and
              publications.
Attachment 5: Compliance for Expenditures and Event Approval.
Attachment 6: SABEQ Contractual Process.
Attachment 7: Steps for Requesting Technical Assistance Orders.
Attachment 8: Terms of Reference, Statements of Work, Job Description.
Attachment 9: Letter from ABCD stating that Laith Qasem had resigned.
Attachment 10: Input from SABEQ.


                                                                                    22
                                                               APPENDIX II


Clearance for Mission’s Response to the Audit of USAID/Jordan’s Sustainable
Achievement of Business Expansion and Quality (SABEQ) Project
(Draft Audit Report No. 6-278-10-XXX-P Dated February 15, 2010)



Clearances:

E. Palmer, CONT                _________ Date: _________


S. Gonyea, EG                  _________ Date: _________


C. Nastoff, RCO                _________ Date: _________


K. Stevens, OPM                _________ Date: _________


H. Pataki, RLA                 _________ Date: _________


D. Mansuri, D. Dir             _________ Date: _________



Drafted:

FMO: A.Shalan                  _________ Date: _________




                                                                        23
                                                                                                                     APPENDIX III




                                                      SABEQ Project
                                Results of Verification of Selected Performance Indicators
                              for the Private Sector Component for Fiscal Years 2008–2009


Indicator                                          FY 08                     FY 09                     Verified                Accomplishment
                                                   Target       Actual       Target       Actual       FY 08    FY 09          FY 08    FY 09
Number of trade-related business that are at                4            5            5            5         8            6    Exceeded   Exceeded
least 50 percent self-funded as a result of USG
assistance
Number of capacity-building service providers               3            4            3            4         4            4    Exceeded   Exceeded
receiving USG assistance
Number of firms receiving USG assistance that           10               2            5        10            2           10    Not Met    Exceeded
obtain certification with voluntary standards or
regulations of international quality control,
environmental, and other processes
Number of firms receiving capacity-building             15           50           10           20           50           11    Exceeded   Exceeded
assistance to export
Number of new technologies or management                    1            2            4            4         2            4    Exceeded   Met
practices under research as a result of USG
assistance
Number of additional hectares under improved            20           40           10           25           44           25    Exceeded   Exceeded
technologies or management practices as a
result of USG assistance
Number of producers’ organizations, water                   3        17               3            5        17            5    Exceeded   Exceeded
users’ associations, and community-based
organizations receiving USG assistance
Number of agriculture-related firms benefiting          10           17               7        20           17           20    Exceeded   Exceeded
directly from USG-supported interventions
Number of new members in private business               50          161          100          110          246          110    Exceeded   Exceeded
associations as a result of USG assistance
Number of business associations and trade                   4            5            5            5         5            5    Exceeded   Met
unions that are at least 50 percent self-funded
as a result of USG assistance
                                                                                                                 7
Number of persons participating in USG-funded          400        41,389       2,500        45,100      Note A        Note A   Exceeded   Exceeded
workforce development programs
Number of persons completing USG-funded                320         2,926       3,500         4,534      Note A        Note A   Exceeded   Exceeded
workforce development programs
Number of persons gaining employment or                160         1,167       1,300         5,368       1,167         5,360   Exceeded   Exceeded
more remunerative employment as a result of
participation in USG-funded workforce
development programs
Number of persons transitioning to further              40           58          100          100           58          100    Exceeded   Met
education and training as a result of
participation in USG-funded workforce
development programs
Number of women’s organizations or                          8        14           20           11           14           11    Exceeded   Not met
associations assisted as a result of USG
interventions

             Note: FY = fiscal year; USG = U.S. Government




             7
              Information is based on attendance documentation from job fairs, training workshops, and
             awareness sessions.


                                                                                                                               24
                                                                                 APPENDIX IV



                                  SABEQ Project Activities
                        Private Sector Activities for Fiscal Year 2008

                                                                                        Partially
Activity                                             Completed   Cancelled   Planned   Completed
Implementation of Jordan Food and Drug
Administration (JFDA) Transformational Plan for
building their capabilities and raising their
standards                                                    x
Arrange a study tour to Beirut to benchmark with
the Lebanese experience in the field of
association capacity building                                            x
Attract and retain qualified medical services
personnel                                                                x
Build Jordan Chamber of Industry's (JCI)
capacity to offer training programs to its
members                                                                  x
Communicate public-private success stories                               x
Conduct a 10 Certified Training for GAP/HASAP
(Good Agricultural Practices/Hazard Analysis and
Critical Control Point) training identified in
assessment                                                   x
Conduct Ajiloun Castle site upgrade in the north                         x
Conduct awareness and recruitment initiatives to
attract women to study nursing                               x
Conduct immediate sector skill training identified
in Packaging Sector Strategy for JCI Members                 x
Conduct Karak Castle site upgrade in the south                                                  x
Conduct Public Private Dialogue session with
JFDA, Jordan Association of Pharmaceutical
Manufacturer and Medical Appliances, and (local
and International) manufacturers to define areas
of weaknesses for JFDA                                                   x
Conduct salary and benefits survey for key
positions in the pharmaceutical sector and
certain positions in the Jordanian labor market              x
Conduct sector-specific public awareness
campaign(1): awareness and training
campaigns on water and energy savings to
tourism services                                                         x
Conduct sector-specific public awareness
campaign(1): marketing and public relations for
Business Process Outsourcing (BPO) in Jordan–
Near Shoring Marketing Campaign                              x
Conduct Um Qais site upgrade in the north                                x
Create call center and BPO strategy and
implementation for Jordan                                                                       x
Create medical services accreditation staff
training strategy and plan for attracting foreign
patients                                                     x
Develop a process and a practical model of
linking research and development providers with
private sector                                                           x
Develop awareness campaign targeting female
students to consider careers in design                                   x

Develop different tour packages in the north                             x




                                                                                        25
                                                                                     APPENDIX IV


                                                                                              Partially
Activity                                            Completed       Cancelled   Planned       Completed

Develop different tour packages in the south                                x
Develop green Architecture and Engineering (A
and E) best practices study tour                                            x
Develop horticulture cold chain network                                                                   X
Develop new codes for green buildings, roads,
environment, and buildings                                                                x
Enable Information and Communication
Technology sector infrastructure                                x
Enhance nursing profession standards                            x
Enhance Private Hospital Association's
effectiveness and sustainability                                            x
Establish Information and Communication
Technology governance reform at government
levels                                                          x
Expand existing tourism site experiences                                                                  X
Facilitate access to finance                                                x
Facilitate cooperation between private sector and
research and development institutions                                                                     X
Facilitate two internships inviting international
students in packaging and design to be placed in
a Jordanian firm                                                x
Gather comprehensive sector information for
utilization in the Ministry of Information and
Communications and Technology’s Economic Unit                                                             X
Identify where sector competitiveness may be
improved by research and development activities                 x
Improve Ministry of Public Works and Housing
service culture                                                                           x
Improve signs in the north and south                                        x
Improve system of qualifying engineering and
construction companies                                                                    x
Increase competitive positioning and Information
and Communication Technology (ICT) sector
promotion                                                                                                 X

Increase farmers’ level of awareness toward the
adoption of new agricultural technologies                                                                 X
Increase farmers’ level of awareness toward the
adoption of new agricultural technologies and
toward new markets and products                                 x
Increase tourist satisfaction                                                                             X
Link agriculture sector with educational and
training institutions
                                                                x
Offer National Horticultural Training Programs                  x
Provide implementation assistance for producers
to help them implement projects in the areas of
saving energy, water, recycling, and material
utilization                                                                 x
Support Jordanian handicraft development                                                                  X
Update tendering audit process at the Ministry of
Public Works                                                                              x
Upgrade capability of locals in performing events
                                                                                                          X




                                                                                                   26
                                                                                       APPENDIX IV


                                                                                                Partially
Activity                                              Completed       Cancelled   Planned       Completed
Upgrade infrastructure and testing capabilities to
ensure compliance with international
specifications and standards                                                  x
Upgrade visitor centers in the north and south                                                              X
Analyze the impact of existing and new trade
agreements on the agriculture sector in order to
increase export opportunities-workshop                                        x
Assess the profitability of drug markets in lesser-
developed countries                                                           x
Build capacity of JCI to be a hub for providing
information about the sector                                                                                X
Conduct sector-specific public awareness
campaign (2): Support promotional efforts of
Jordanian pharmaceuticals companies                                           x
Create export opportunities by supporting
promotional efforts of Jordanian pharmaceuticals
companies                                                         x

Create market strategy for horticulture products                  x
Design and build medical services sector
database                                                                                                    X

Develop medical services national marketing and
promotional strategy and plan                                                 x
Develop medical services sector business
linkages with Jordanian travel agencies                                       x
Develop National Agricultural Management
Information System                                                            x

Develop scale and create export opportunities by
preparing the manufacturing companies for
pursuing European Health Authority Accreditation                                            x

Develop scale and create export opportunities by
preparing the manufacturing companies for
pursuing Food and Drug Administration (FDA)
accreditation                                                                               x

Develop scale and create export opportunities by
preparing the manufacturing companies for
pursuing World Health Organization (WHO)
accreditation                                                                 x

Enhance capital access, financing, and
investment opportunities for call center and BPO                  x
Establish marketing intelligence unit for A and E
services                                                                      x
Establish marketing opportunities unit for A and
E business council                                                                          x
Establish national competitive legal framework
for BPO market in Jordan                                          x
Foster linkages between packaging industry-
producers and exporters-consumers                                             x
Foster medical services sector international
buyer-seller linkages                                             x




                                                                                                     27
                                                                                    APPENDIX IV


                                                                                             Partially
Activity                                           Completed       Cancelled   Planned       Completed
Identify market opportunities and market
intelligence requirements in nontraditional
markets                                                                                                  X
Identify packaging export and investment
opportunities                                                  x
Improve operating efficiency of local wholesale
markets                                                                                                  X
Increase competitive positioning and Information
and Communication Technology sector
promotion                                                                  x

Increase competitiveness and local value-added
opportunities for locally made garments                        x
Link A and E business council to international
counterparts                                                               x
Participate in and attend international
exhibitions/conferences/forums                                             x
Presentation of packaging sector strategy to
main stakeholders and players                                              x
Support implementation of national marketing
and promotional plan (public awareness
campaign)                                                                  x
Upgrade A and E business council Web site                      x
Conduct Three Zweig White Certified Training for
A and E Members                                                x
Conduct training needs assessment for A and E
members                                                        x
Develop a best practices document to be
distributed to all members                                                               x
Develop a code of A and E ethics document to be
distributed to all members                                                 x
Develop a management best practices document
to be distributed to all members                                                         x
Provide specialized training to the A and E
business council to extend to its members                                  x
Provide component, solution, or sector project
management oversight                                           x

TOTAL                                                     26              34         9                 16




                                                                                                  28
                                                                                    APPENDIX V




                                     SABEQ Project
                      Private Sector Activities for Fiscal Year 2009

                                                                                    Partially
Activity                                      Completed   Cancelled       Planned   completed
 Advertise Energy Water Audits for Small
and Micro Enterprises (SME’s) (20)                                                               X
Develop an alternative fuel for engines                                                          X
Improve the efficiency of flat plate solar
water heaters using nanocoating                                                                  X
Assess and analyze current relicensing
and continuing education for nurses’
instructions                                                          x
Conduct regional integration sessions for
the economic strategy in the regions                                                             X
Establish medical malpractice law
implementation mechanisms                                                       x
Build and strengthen the capacity of the
existing development units in Irbid and
Karak under the Ministry of Interior                                                             X
Build and strengthen the capacity of the
Regional Economic Councils
Secure plastic and recycling jobs through
regulation of plastic use                             x
Set up signs in Karak Castle to facilitate
use of audio guides                                   x
Adapt existing technology for the
utilization of animal waste for energy
production in Jordan                                                                             x
Assist the citrus producers through Al-
Adasieh Association to improve their
production capability and capacity and
assist in marketing                                   x

Assist the garment sector in advocacy
efforts                                                               x
Build capacity in pattern digitizing, order
and marker preparation, and preparation
and plotting of markers to enhance
productivity and material utilization                 x
Build capacity of manufacturers on the
batch record review expectations of
regulatory agencies and measure the
effectiveness of the review process                                                              X
Build capacity of manufacturers to
respond effectively to nonconformance,
failures, deviations, and complaints by
identifying root causes and implementing
corrective and preventive actions                                     x



                                                                                         29
                                                                                    APPENDIX V


                                                                                    Partially
Activity                                      Completed   Cancelled       Planned   completed
Build capacity of manufacturers to use
proven sewing performance data to
accurately determine the time required to
perform sewing operations                                             x
Define production process pitfalls and
bottlenecks to increase downtime                      x
Design and implement water-harvesting
projects in Jordan to enhance
competitiveness of the agricultural sector                                                           X
Develop handicrafts sector in the regions                                                            X
Develop horticultural cold chain network in
the regions                                                                                          X
Develop national nurses’ credentialing
system under Jordanian Nursing Council                x
Enhance packaging for the cosmetics
manufacturers                                                                                        X
Enhance the efficiency of farmers to
protect their produce from the frost effect           x
Enrich tourist experience in Karak                                                                   X
Identify where garment and
pharmaceutical sectors’ competitiveness
may be improved by research and
development                                                                                          X

Identify where sector competitiveness may
be improved by research and
development                                                                     x
Implement recommended activities for
sector development                                                                                   X
Improve fresh fruit and vegetable products
packaging designs by providing
implementation assistance for selected
nongovernmental organization to design
product packaging                                                               x
Increase the value of fruits and vegetables
through improved post-harvest techniques              x
Introduce cost-cutting and return on
investment measures, strategies, and best
practices available to the pharmaceutical
industry to enhance profitability, future
development, and sector competitiveness                               x
Mentor Local Economic Development
(LED) activities implementation based on
SABEQ sector integration approach                     x
Promote and conduct a business
matchmaking event to secure linkages
between SMEs and Medium and Large
Enterprises                                                           x




                                                                                                30
                                                                                     APPENDIX V


                                                                                     Partially
Activity                                       Completed   Cancelled       Planned   completed
Promote the integration of sustainable
development into rural communities
through the “Greener South” project and
campaign                                                               x
Provide manufacturers with practical
guidance on compliance with the
requirements of process validation to
reduce the risk of nonconformances and
avoid costly delays and rejections by
regulatory authorities                                                 x
Reexamine supply chain models and
sourcing strategies by facilitating group
buying to reduce manufacturing costs and
secure market share                                                                                   X
Review, finalize, and implement the plan
for selected tourism attraction destination                                                           x
Revise and evaluate the factory layout,
productivity, engineering standards and
methods, workflow, and payroll systems                                 x
Provide support at the firm level in
acquiring U.S. patents                                                                                x
Support female farmers in Bani Kinanah
association in the production of herbs                                                                x
Support the women of Ghour Safi to
produce, process, and market different
vegetable-based products                                                                              x
Continue the implementation of the
national nursing awareness and
recruitment campaign to attract women to
study nursing                                                          x
Support the attendance of two Jordan
Institute of Standard and Metrology
employees to attend “Global Gap Certified
Trainer" training course in the United
States                                                                           x
Build the capacity of Jordanian designers
to provide innovative solutions for specific
sectors                                                x
Facilitate two internships inviting
international students in packaging and
design to be placed in Jordanian firms                 x

Support the establishment of a post-
harvest lab in the University Station in
Jordan Valley                                                          x
Assess BPO zones at a high level in
infrastructure, training, and policy
framework (BPO 5)                                      x
Assess the current liability insurance
capacities in Jordan                                                             x




                                                                                                 31
                                                                                  APPENDIX V


                                                                                  Partially
Activity                                        Completed   Cancelled   Planned   completed
Assist in attracting new importers from
high value targeted countries                                                 x
Build capacity of the manufacturers on
preparation methodology and
requirements of Abbreviated New Drug
Applications, according to U.S. FDA,
registration, and assessment of the
dossier                                                 x
Build the capacity of Jordanian design
firms to improve design firms’ processes
and performance                                         x
Build the capacity of the Jordanian design
firms to better meet market demand                                            x
Conduct sectoral development activities
(i.e., set up local chapter for International
Association of Outsourcing Professionals)
and increase industry exposure of Jordan
BPO sector and participate in key industry
events. (BPO 12)                                        x
Create offshore referral and telemedical
function                                                                                           x
Develop exports targeting the U.S. market
and identify packaging improvement
requirements                                                                                       x
Develop medical services national
marketing and promotional strategy and
plan                                                                          x
Develop scale and create export
opportunities by preparing the
manufacturing companies to pursue
international accreditation                             x
Enhance the capacity of the health attaché
to be more effective and expand
embassies’ roles to include marketing and
promoting medical tourism; and to provide
facilitation, guidance, and support services
to implement marketing and promotional
strategies                                              x
Enhance the opportunities of contract
research organizations expansion to meet
international demand and become
internationally recognized and accredited               x
Enhance the opportunities of
pharmaceuticals sector international
buyer-seller linkages through networking
and promotional efforts                                                                            x
Enhance the opportunities of
pharmaceuticals sector international
buyer-seller linkages through networking
and promotional efforts (international
exhibitions/conferences/forums)



                                                                                              32
                                                                                    APPENDIX V


                                                                                    Partially
Activity                                      Completed   Cancelled       Planned   completed

Establish a market linkage program for
crafts                                                x
Establish medical tourism council                                     x
Facilitate networking with regional health
regulatory authorities’ through training on
Intellectual Property and pharmaceutical
regulations and practices                                             x
Foster medical services sector
international buyer-seller linkages                                                                  x
Identify and promote export opportunities
for furniture products manufacturers to
improve competitiveness within the
industry                                                                        x
Identify detailed requirements for physical
(i.e., facilities) and business enabling
environment for BPO zones (BPO 7)                     x
Identify detailed requirements for
technology infrastructure for BPO zones
(BPO 8)                                               x
Identify environmental packaging
opportunities for paper and board and
flexible packaging                                                              x
Identify export opportunities for the stone
and marble products manufacturers in
Jordan                                                x
Improve operating efficiency of the new
Irbid Wholesale Market                                                                               x
Improve the standards and performance of
Jordan Association of Pharmaceutical
Manufacturers (JAPM), JFDA, and firms
by conducting the 2nd Bio Equivalence
Conference for Evaluation of
Bioequivalence Studies                                                                               x
Increase capacity within the Information
Technology Association – Jordan (INT@J)
to develop strategies/action plans and
deliver key projects related to their
mandate, including the National ICT
strategy                                                              x
Maximize economic benefits resulting from
increased emissions trading through a
national carbon trading action plan                   x
Promote the development of the
Agricultural Product Map of Jordan and
train the farmers and exporters to use it             x
Provide support for firms in renewable
energy sector                                         x




                                                                                                33
                                                                                     APPENDIX V


                                                                                     Partially
Activity                                       Completed   Cancelled       Planned   completed
Support hosting of international
conference on hospital management and
medical tourism                                                                                       x
Support implementation of national
marketing and promotional plan (public
awareness campaign)                                                                                   x
Support the A and E business council's
efforts to introduce green buildings into
Jordan                                                 x
Support the establishment of a production
center to collect, process, and market
dairy products                                                                                        x
Upgrade infrastructure for the packaging
sector to provide better services and
products                                               x
Work with an international market
research firm in conjunction with
Department of Statistics to produce an ICT
Sector yearbook                                                                                       x
Assist municipalities in developing specific
priorities and strategies and working with
them to implement economic initiatives
with local economic stake holders within
the priority sectors; and provide technical
assistance for municipalities                                                                         x
Assist the society in preparing their
biannual conference                                                                                   x
Enhance the competitiveness of
pomegranate producers through a national
campaign                                               x
Increase awareness of national
competitiveness                                        x
Support study and affiliation tour for
Jordan Medical Council board member
and staff to explore best practices in
physicians’ credentialing and initiate
affiliation with potential U.S. partners                               x
Assist municipalities in developing specific
priorities and strategies and working with
them to implement economic initiatives
with local economic stake holders within
the priority sectors; and provide technical
assistance for municipalities                          x
Building local stakeholders’ capacity to
produce and operate their projects
(training unit and herbs)                                              x
Conduct a feasibility study to establish a
central bakery                                                         x
Create and manage Arabic digital content                                                              x



                                                                                                 34
                                                                                          APPENDIX V


                                                                                          Partially
    Activity                                       Completed    Cancelled       Planned   completed
    Design, build, and deploy a joint program
    with int@j to certify local ICT companies
    against applicable elements of the
    Software Engineering Institute’s Capability
    Maturity Model Integration project                                                                      x
    Develop a feasibility study to assist
    investors with establishment of an
    industrial firm in Karak                                                x
    Engage BPO sector stakeholders in
    market development strategic
    assessment, profiling, and consensus on
    differentiated positioning of Jordan in the
    Global BPO marketplace. Leverage
    international network in creation of BPO
    service provider or client demand
    opportunities in Jordan.                                                                                x
    Enhance handling management systems
    for engineering products manufacturers                  x
    Improve communication and service
    delivery skills of medical and supporting
    staff in hospitals                                                      x
    Improve the capability of Jordanian
    researchers in proposal writing                                                                         x
    Improve the capability of Jordanian
    researchers in research and development
    commercialization                                                                                       x
    Develop a LED media and outreach
    campaign to improve awareness across
    the regions                                             x
    Enhance published industrial magazines                  x
    Increase the number of networking
    opportunities for professionals in the light
    manufacturing industry                                  x
    Increased efficiency of ICT as a
    representation of local industries                                                                      x
    Provide component, solution or sector
    project management oversight                            x
    Component, solution or sector project
    management oversight                                                                                    x
    Operational budget                                                                                      x
    Provide component, solution or sector
    project management oversight
    Subtotal for 2009                                      36          19            10                    39
    Subtotal for 2008 8                                    26          34             9                    16
    Grand Total                                            62          53            19                    55




8
    Totals are provided from information in appendix IV.


                                                                                                      35
                                                                    APPENDIX VI


                             SABEQ PROJECT GRANTS


     AIESEC (Association Internationale des Étudiants en Sciences       $103,713
1    Économiques et Commerciales)
2    Al al-Bayt University                                                $48,729
3    Al Huson University                                                $144,379
4    Business and Professional Women Association                        $111,175
5    Bani Kinana Women Association                                       $58,2623
6    EAM                                                                 $190,751
7    Events Unlimited                                                     $16,737
8    Excellence INC                                                       $20,904
9    Garment Design and Service Center                                    $65,244
10   Hammamat Qusaib                                                      $30,720
11   Int@j (Information Technology Association – Jordan)                $393,226
12   Irbid Chamber of Commerce                                            $90,819
13   Jordan Exporters and Producers of Fruit and Vegetables               $61,059
14   Jordan Exporters Association                                         $49,847
15   Jordan Forum for Business and Professional Women                   $130,349
16   Jordan Furniture Exporters and Manufacturers Association             $13,746
17   Jordan Garment Accessories and Textile Association                   $55,954
18   Jordan Hashemite Fund for Human Development                          $36,707
19   Jordan University for Science and Technology                         $69,350
20   JIPA (Jordan Intellectual Property Association)                      $82,074
21   Jordan National Forum for Women                                       $6,953
22   Jordan Olive Products Exports Association                             $7,062
23   Jordan Society for Quality                                           $24,979
24   Jordan Society for Scientific Research                                $9,887
25   Jordan Stone and Marble Exporter Association                         $54,408
26   Jordan Association for Pharmaceutical Manufacturers                 $122,194
27   Jordan Cultural Association for Development of Laws                   $5,653
28   Jordanian Nursing Council                                             $9,811
29   Karak Sheep Breeding Association                                    $124,859
30   King Abdullah Center for Excellence                                  $56,682
31   Manshiat Abu Hammour                                               $100,000
32   Mutaa University                                                     $38,136
33   National Energy Research Center                                     $100,282
34   North Shouneh Association                                            $30,261
35   Pioneer Road Event Management Company                                $23,249
36   Private Hospital Association                                         $53,333
37   Queen Rania Center for Entrepreneurship                               $4,449
38   Shabakat Al Ordon                                                    $40,113
39   Shafa Al Khair Association                                          $115,763
40   Jordanian American Business Association                               $9,294
41   University of Jordan                                                 $19,774
42   Young Entrepreneurship Association                                   $66,000
43   YWCA (Young Women’s Christian Organization)                          $27,300
     Grand Total                                                       $2,824,189




                                                                          36
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig




                                            37
